     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
                                                                          Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278
January 13, 2010

Report Number: A-02-07-01053

Ms. Jennifer Velez, Esq.
Commissioner
New Jersey Department of Human Services
222 South Warren Street
P.O. Box 700
Trenton, New Jersey 06825-0700

Dear Ms. Velez:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Early Intervention Services Costs Claimed by
New Jersey to the Medicaid Program.” We will forward a copy of this report to the HHS action
official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-02-07-01053 in all correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services

Enclosure

HHS Action Official:

Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




REVIEW OF EARLY INTERVENTION
 SERVICES COSTS CLAIMED BY
     NEW JERSEY TO THE
     MEDICAID PROGRAM




                       Daniel R. Levinson
                        Inspector General

                         January 2010
                         A-02-07-01053
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY
BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

In New Jersey, the Department of Human Services (the State agency) administers the Medicaid
program. Pursuant to Attachment 3.1-A of New Jersey’s Medicaid State plan, rehabilitation
services under the early intervention program are limited to services contained in a treatment
plan and provided under the treatment component of Early Periodic Screening, Diagnosis, and
Treatment (EPSDT) to children with disabilities. The EPSDT program is administered by the
New Jersey Department of Health and Senior Service, Division of Family Health Services. The
program’s mission is to enhance the capacity of families to meet the developmental and health-
related needs of children who have delays or disabilities by providing quality services and
support to families and their children.

The State agency entered into a contingency fee contract with Covansys Corporation (Covansys)
in February 2004 to administer, manage, and operate a statewide billing and collection system
for early intervention services. According to the terms of the contract, Covansys operated a
centralized finance office and a claims payment system. Early intervention service providers
submitted claims to Covansys, which processed the claims and forwarded them to the State
agency for payment.

The State agency subsequently claimed $69,107,868 ($34,553,934 Federal share) for
reimbursement of early intervention services paid to providers within 12 months from the date of
service for the period July 1, 2005, through June 30, 2007. The State agency paid Covansys a
contingency fee of 1.55 percent of funds federally reimbursed as a result of their contract.

OBJECTIVE

Our objective was to determine whether New Jersey properly claimed Federal Medicaid
reimbursement for early intervention services paid to providers within 12 months from the date
of service and submitted as a result of its contingency fee contract with Covansys.

SUMMARY OF RESULTS

Early intervention services paid to providers by the State agency within 12 months of the date of
service were claimed in accordance with Federal and State regulations. This report contains no
recommendations.




                                                i
                                                  TABLE OF CONTENTS

                                                                                                                         Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Medicaid Program........................................................................................1
              New Jersey Early Intervention System ........................................................1
              Covansys Corporation..................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope............................................................................................................2
               Methodology ................................................................................................2

          RESULTS OF REVIEW..........................................................................................3




                                                                    ii
                                                   INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Pursuant to 42 CFR 447.45(d)(1), State Medicaid agencies must require providers to submit all
claims no later than 12 months from the date of service. In addition, pursuant to 42 CFR
447.45(d)(4), State Medicaid agencies must pay all claims within 12 months of the date of
receipt. 1

New Jersey Early Intervention System

In New Jersey, the Department of Human Services (the State agency) administers the Medicaid
program. Pursuant to Attachment 3.1-A of New Jersey’s Medicaid State plan, rehabilitation
services under the early intervention program are limited to services contained in a treatment
plan and provided under the treatment component of Early Periodic Screening, Diagnosis, and
Treatment (EPSDT) to children with disabilities. The EPSDT program is administered by the
New Jersey Department of Health and Senior Service, Division of Family Health Services. The
program’s mission is to enhance the capacity of families to meet the developmental and health-
related needs of children who have delays or disabilities by providing quality services and
support to families and their children.

Covansys Corporation

The State agency entered into a contingency fee contract with Covansys Corporation (Covansys)
in February 2004 to administer, manage and operate a statewide billing and collection system for
early intervention services. Pursuant to the contract, Covansys operated a centralized finance
office and a claims payment system. Early intervention service providers submitted claims to
Covansys, which processed the claims and forwarded them to the State agency for payment.

The State agency subsequently claimed $69,107,868 ($34,553,934 Federal share) for
reimbursement of early intervention services paid to providers within 12 months from the date of
service for the period July 1, 2005, through June 30, 2007. The State agency paid Covansys a
contingency fee of 1.55 percent of funds federally reimbursed as a result of their contract.

1
 This time limitation does not apply to retroactive adjustments, claims from providers under investigation for fraud
or abuse, or payments made in accordance with a court order.



                                                          1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether New Jersey properly claimed Federal Medicaid
reimbursement for early intervention services paid to providers within 12 months from the date
of service and submitted as a result of its contingency fee contract with Covansys.

Scope

Our audit covered early intervention services totaling $69,107,868 ($34,553,934 Federal share)
that were claimed from July 1, 2005, through June 30, 2007. During our audit, we did not
review the overall internal control structure of the State agency or the Medicaid program.
Rather, we reviewed only those internal controls that pertained directly to the objective of our
audit.

We performed our fieldwork from November 2007 through March 2009 at the State agency’s
offices in Trenton, New Jersey.

Methodology

To accomplish our objective, we:

       reviewed relevant Federal and State laws, regulations, and guidance;

       reviewed the contingency fee contract between the State agency and Covansys;

       obtained a database from the State agency containing 298,994 paid early intervention
        services claims totaling $69,107,868 ($34,553,934 Federal share) 2 submitted as a result
        of its contract with Covansys;

       reconciled early intervention services claims to the Form CMS-64s submitted by the State
        agency for the period July 1, 2005, through June 30, 2007;

       eliminated from the database provider claims submitted to the State agency more than
        12 months after the date of service; 3

       identified a sampling frame of 259,418 paid early intervention services claims, totaling
        $74,407,260 ($37,203,630 Federal share);


2
 This is the net amount (positive claims less adjustments) claimed by the State agency on its Form CMS-64s. For
sample purposes, we excluded negative claims from our population.
3
 We are reviewing claims submitted by providers to the State agency more than 12 months after the date of service
as part of a separate audit.


                                                        2
      selected a simple random sample of 100 claims from the sampling frame of 259,418; and

      for each of the 100 sampled claims, we determined if:

           o the child receiving the related service was enrolled in the Medicaid program;

           o the related service was covered under the NJEIS;

           o the related service was listed in the child’s treatment plan (Individualized Family
             Service Plan); and

           o the State agency paid the claims within 12 months of the date of receipt.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                   RESULTS OF REVIEW

Early intervention services paid to providers by the State agency within 12 months of the date of
service were claimed in accordance with Federal and State regulations. This report contains no
recommendations.




                                                3
